                               SENSITIVE BUT UNCLASSIFIED

                                                       United States Department of State
                                                       and the Broadcasting Board of Governors

                                                       Office of Inspector General




MEMORANDUM

TO:            BBG – (b) (6)

FROM:          OIG/ISP – (b) (6)

SUBJECT:       Memorandum Report – Review of Broadcasting Board of Governors Operations
               in Nairobi, Kenya, ISP-IB-12-40

Executive Summary

       The Office of Inspector General (OIG) team found no serious management problems at
the Voice of America (VOA) Nairobi News Bureau. There are, however, several
recommendations to improve administrative support and strengthen management controls.
Security at the facility is at or above standards. The Broadcasting Board of Governors (BBG)
Office of Security was scheduled to visit the bureau within a month after the OIG inspection to
complete the few remaining upgrades from its previous survey.

Purpose and Scope

        In connection with the OIG inspection of Embassy Nairobi, a three-person team
consisting of public diplomacy, management, and security inspectors conducted a routine review
of BBG operations in Nairobi, focusing primarily on the VOA Nairobi News Bureau. The
inspection was conducted by inspectors (b) (6)                                            The
inspection took place in Washington, DC, between April 9 and 30, 2012, and in Nairobi, Kenya,
between May 10 and 22, 2012.

VOA News Bureau Operations

        The VOA Nairobi News Bureau covers about a dozen countries in Central and East
Africa for the VOA Central News Division. The bureau chief, a full-time U.S. direct-hire
correspondent, supervises an experienced locally employed (LE) assistant. The bureau chief
travels 1 or 2 weeks every month, and the travel budget is sufficient to enable him to cover the
major stories in the region. The news bureau is located in a commercial building in downtown
Nairobi and has adequate office space. The correspondent has a good working relationship with
the public diplomacy sections of Embassy Nairobi and the separate Somalia Unit housed within
the embassy.

       The bureau chief also works often, but on ad hoc basis, with five stringers under contract
in Nairobi and one in Kampala, Uganda. The bureau chief does not supervise these stringers,
                                            1
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

which is done by the Africa coverage editor based in Johannesburg, but he and the stringers
could benefit from periodic meetings to share information.

       Informal Recommendation 1: The Broadcasting Board of Governors should require that
       the Voice of America Nairobi News Bureau hold periodic meetings with its local
       stringers to share information and ideas.

Administrative Issues

         BBG in Washington handles the news bureau’s overall budget, and the news bureau’s
assistant handles money for the office. He is a Class A cashier with a (b) (5) advance. Most
bills are small and paid with petty cash. The OIG team observed an unannounced cash
verification conducted by the embassy financial management officer. The verification was
satisfactory. Neither the bureau chief nor the assistant is well versed in their office’s relationship
to the larger BBG organization.

        The cashier operation lacks a dedicated safe, and items such as phone cards are
comingled with cash. The single U.S. direct-hire employee, the bureau chief, does not have the
training, experience, or time to enforce Class A cashier regulations, which include conducting
regular, unannounced cashier verifications. In accordance with Memorandum of Agreement VII
710, unannounced verifications of a cashier must be conducted monthly, regardless of the
advance amount. The draft International Broadcasting Bureau Administrative Manual Title 7,
Part 200, Section 206.7 c.(8), also provides that the supervisory official is responsible for
ensuring that cash verifications and audits are performed as required.

       In 2011 the news bureau conducted only 8 of the mandatory 12 cash verifications.
Neglecting this requirement diminishes internal controls and leaves the cashier vulnerable to
accusations of stealing.

Recommendation 1: The Broadcasting Board of Governors should require that the Voice of
America Nairobi News Bureau conduct and document unannounced cash verifications on a
monthly basis. (Action: BBG)

        The news bureau receives services gratis from Embassy Nairobi’s information
technology staff. The news bureau assistant uses Department of State automated systems to do
his work, but the news bureau does not subscribe to information technology services under
International Cooperative Administrative Support Services (ICASS). The assistant has arranged
informally to obtain necessary training, advice, and troubleshooting from embassy ICASS
employees. The ICASS system seeks to provide quality services at the lowest cost, while
attempting to ensure that each agency bears the cost of its presence abroad. Obtaining services
from ICASS employees free of charge violates the principle of equitable cost sharing and results
in other ICASS subscribers subsidizing BBG operations. For small agencies not under the chief
of mission, ICASS subscriptions can be carefully tailored to contain agency costs.

Recommendation 2: The Broadcasting Board of Governors should require that the Voice of
America Nairobi News Bureau coordinate with the Voice of America Central News Division to
subscribe to the International Cooperative Administrative Support Services framework for any
information technology support from Embassy Nairobi. (Action: BBG)
                                            2
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



       The assistant lost 32 hours of annual leave in 2011 because the bureau chief is his only
backup and is often out of Nairobi and unavailable. Without planning for employee backup
capability, the news bureau is vulnerable to substantial interruptions to its Nairobi operation.

Recommendation 3: The Broadcasting Board of Governors should require that the Voice of
America Nairobi News Bureau implement a leave plan that will allow for appropriate office
coverage. (Action: BBG)

        The bureau chief signs all timesheets that include staff overtime and leave, but he does
not sign timesheets that include only regular duty hours. Lack of consistent certification of time
and attendance by supervisors diminishes internal controls and leaves subordinates vulnerable to
accusations of unexcused absenteeism.

Recommendation 4: The Broadcasting Board of Governors should require that the Voice of
America Nairobi News Bureau implement a procedure whereby the bureau chief or the acting
bureau chief signs all locally employed staff timesheets. (Action: BBG)

        The news bureau documents payments for cleaning services and security alarm
maintenance and repair by maintaining invoices and receipts. It lacks, however, contractual
documents for these services, because the assistant processing the payments was unaware of the
requirement. Per Title 9, Section 221, of the draft International Broadcasting Bureau
Administrative Manual, a procurement agreement should be used whenever BBG obtains
property or services. Supporting documentation is required to ensure that all payments are
authorized, accurate, legal, and correct, and that goods were actually received or services
actually performed. Supporting documentation for voucher processing includes purchase orders
and contracts, invoices and vouchers, and receiving reports and approvals. The absence of
obligating documents violates regulations and leaves staff vulnerable to accusations of fraud.

Recommendation 5: The Broadcasting Board of Governors should require that the Voice of
America Nairobi News Bureau establish contractual documents for cleaning, security alarm
maintenance, and repair services at the news bureau. (Action: BBG)

       The assistant works independently and is alone in the office much of the time. The OIG
team observed that he is in contact with VOA support personnel in Washington, but the written
guidance on BBG/VOA procedures and operations were outdated by 10 years or more. It is a
generally accepted management principle that if employees are expected to perform effectively
and be advocates of their organization, they must be fully and accurately informed about their
organization. Without adequate knowledge of and contact with the larger organization, the news
bureau’s LE assistant is less efficient and effective.

Recommendation 6: The Broadcasting Board of Governors should require that the Voice of
America provide the Nairobi News Bureau with updated guidance on operations and procedures,
including information on appropriate Voice of America and Broadcasting Board of Governors
offices in Washington and in the region. (Action: BBG)




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Security

        The news bureau met or exceeded all security regulations. The employees were well
informed on the use of the security systems in the office and building, cognizant of the security
threats, and were taking appropriate measures. (b) (5)

                                    The OIG team reviewed the security survey that the BBG
Office of Security completed in December 2010 and agreed with its content. Most of the BBG
Office of Security recommendations were completed. A BBG security team is scheduled to visit
Nairobi by June 2012 to close out the remaining six security recommendations from its
December 2010 security survey.

Other Broadcasting Board of Governors Operations in Kenya

       The January 2008 inspection report of BBG operations in Kenya (ISP-IB-08-07) noted
problems with the VOA signal strength from the International Broadcasting Bureau’s 24/7 FM
transmitter that led to poor reception in parts of Nairobi. VOA told the OIG team that, following
an upgrade, signal strength has improved.

        The International Broadcasting Bureau’s Regional Marketing and Program Placement
office in Johannesburg, South Africa, oversees the marketing and affiliate program in Kenya,
with the assistance of a local contractor who works out of his home. In view of the increased
importance of Somalia, VOA has also improved the reach of its Somali Service broadcasts
through an affiliate agreement signed in September 2011 with Star FM, which has a strong
network in Nairobi and northeast Kenya and broadcasts three VOA Somali-language newscasts
per day.

       For the VOA Swahili service, primary affiliate Citizen Radio, a VOA partner for more
than 10 years, provides good reach.

        For your convenience, I have attached a copy of the compliance information sheet and
compliance instructions for responding to the recommendations. The action office(s) should
provide a response to the report, with information on actions taken or planned for each of the
recommendations. The response(s) must show the concurrence of the participating offices listed
for each recommendation.
       Please submit the response—including an electronic copy on CD-ROM—within 30 days
from the receipt of this memorandum to (b) (6)
            Department of State, Room 8100, SA-3, Washington, DC 20520.

       Thank you for your cooperation.


Enclosures:
       Compliance Sheet
       OIG Resolution Procedures



                                           4
                              SENSITIVE BUT UNCLASSIFIED
